<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2018</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]




 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2018

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's Note.--The subcommittee was unable to hold 
hearings on nondepartmental witnesses. The statements and 
letters of those submitting written testimony are as follows:]
   Prepared Statement of the Alameda County Bar Association, Oakland 
                               California
Dear Senators:

    We are a local bar association representing 1400 attorneys in 
Alameda County, California, and we are writing to urge you to reject 
the proposed elimination of funding for the Legal Services Corporation 
(LSC). Our association is made up of attorneys from large and small 
corporate law firms, prosecutors, and city attorneys, among others. We 
are Republicans, Democrats and Independents, but what we have in common 
is a belief that Legal Aid plays a critical role in the justice system 
and in our society.
    As you no doubt know, the LSC provides funding (through a carefully 
monitored grant and review process) to Legal Aid organizations across 
the country. Last year, Legal Aid organizations provided assistance to 
more than 1.9 million Americans, helping them with issues like 
obtaining a domestic violence restraining order, dealing with consumer 
fraud, and struggling with problems in housing conditions. They provide 
help to veterans in a wide variety of areas. One in five people 
nationwide qualifies for legal services from the organizations. There 
are other nonprofits that provide legal services to low-income 
communities--but the lions' share of the work is done by the one 
organization in each region that is funded by LSC.
    Without Legal Aid, homelessness, domestic violence, and poverty 
will increase. Not only would such increases be terrible from a moral 
and democratic standpoint--they would also significantly decrease the 
quality of life for all of us living in these communities. Further, 
having more people trying to represent themselves in courts will create 
court congestion. Dealing with litigants who are representing 
themselves takes much more time than dealing with cases with attorneys. 
Those of us representing America's corporations and small businesses 
will be forced to recommend that they pay a private judge in order to 
get their cases heard in a timely manner.
    Some have suggested that if the Federal Government defunds Legal 
Aid, private lawyers will step in and cover the gap with pro bono work. 
In fact, just the opposite is true. As more than 150 law firms stated 
in a letter to the Office of Management and Budget, ``Eliminating the 
Legal Services Corporation will not only imperil the ability of civil 
legal aid organizations to serve Americans in need, it will also vastly 
diminish the private bar's capacity to help these individuals . . . . 
The pro bono activity facilitated by LSC funding is exactly the kind of 
public-private partnership the government should encourage, not 
eliminate.''
    This is not a partisan issue. The LSC has long enjoyed bipartisan 
support in both the House and the Senate. Legal Aid is a critical part 
of the justice system, and if that piece is broken, the entire system 
will virtually cease to function. And the justice system, in turn, is 
one of the key elements keeping the wheels of American commerce 
rolling. LSC's budget for the entire country is only $385 million--
that's .00009 percent of the Federal budget. Yet the $40 million that 
California alone stands to lose makes all the difference.
    We urge you to stand firm, and insist that the LSC budget remain 
uncut.

            Sincerely,

                                   Tiela Chalmers,
                                           CEO and General Counsel.
                                   Eric Handler,
                                           President.
                                 ______
                                 
     Prepared Statement of the American Society of Plant Biologists
    On behalf of the American Society of Plant Biologists (ASPB), I 
submit this testimony for the official record to support $8 billion for 
the National Science Foundation (NSF) for fiscal year 2018. ASPB 
recognizes the difficult fiscal environment our Nation faces, but we 
believe that sustained investments in scientific research will be a 
critical step toward economic recovery and continued global 
competitiveness for our Nation.
    ASPB would like to thank the subcommittee for its consideration of 
this testimony and for its strong support for the research mission of 
NSF.
    ASPB is an organization of professional plant biology researchers, 
educators, graduate students, and postdoctoral scientists with members 
across the Nation and throughout the world. A strong voice for the 
global plant science community, our mission--achieved through work in 
the realms of research, education, and public policy--is to promote the 
growth and development of plant biology, to encourage and communicate 
research in plant biology, and to promote the interests and growth of 
plant scientists in general.
    food, fuel, environment, and health: plant biology research and 
                            america's future
    Plants are vital to our very existence. They harvest sunlight, 
converting it to chemical energy for food and feed; they absorb carbon 
dioxide and produce oxygen; and they are the primary producers on which 
most life depends. Indeed, plant biology research is making many 
fundamental contributions in the areas of energy security and 
environmental stewardship; the continued and sustainable development of 
better foods, fabrics, and building materials; and in the understanding 
of biological principles that underpin improvements in the health and 
nutrition of all Americans.
    Plant science has become that backbone of agricultural innovation, 
and a thriving agricultural sector has become a cornerstone for 
American economic success. Agriculture and agriculture related 
industries comprise 5.7 percent of the U.S. GDP, contributing $985 
billion and 17.3 million jobs to the economy.\1\ In fact, despite 
persistent US trade deficits, there has been a surplus in agricultural 
trade since 1960 with a $21.5 billion surplus expected in 2017.\2\ To 
maintain and increase agricultural productivity, critical investments 
in basic biological sciences, such as plant biology, are needed.
---------------------------------------------------------------------------
    \1\ https://www.ers.usda.gov/data-products/ag-and-food-statistics-
charting-the-essentials/.
    \2\ https://www.ers.usda.gov/topics/international-markets-trade/us-
agricultural-trade/.
---------------------------------------------------------------------------
    In particular, plant biology is at the interface of numerous 
scientific breakthroughs. For example, with high throughput 
experimental approaches facilitating extraordinary syntheses of 
information that are NSF-supported, plant biologists are using computer 
science applications to make tremendous strides in our understanding of 
complex biological systems, ranging from single cells to entire 
ecosystems. Understanding how plants function ultimately will result in 
better and more productive crops, new sources of fuel, and the 
development of better medicines to treat diseases like cancer.
    Despite the significant positive impact plants have on our Nation's 
economy and in addressing some of our most urgent challenges, including 
food and energy security, Federal investments in fundamental plant 
biology research are modest. Still scientists have maximized and 
leveraged this funding in order to understand the basic function and 
mechanisms of plants, providing a foundation for vital advances in 
practical applications in agriculture, health, energy, and the 
environment.
    To address future societal challenges that might be mitigated 
through investments in plant biology research and to prioritize 
community research efforts, ASPB organized a two-phase Plant Science 
Research Summit with funding from NSF, the U.S. Department of 
Agriculture, the Department of Energy, and the Howard Hughes Medical 
Institute that resulted in the development of a community agenda 
document: ``Unleashing a Decade of Innovation in Plant Science: A 
Vision for 2015-2025'' (plantsummit.files.wordpress.com/2013/07/
plantsciencedecadalvision10-18-13.pdf). The report, part of an ongoing 
and iterative process, puts forth a 10-year consensus agenda to fill 
critical gaps in our understanding of plant biology in order to address 
the grand challenges we face. As a research community, our vision is to 
create plant systems that are flexible and adaptable to new and 
existing challenges by increasing the predictive and synthetic 
abilities of plant biology. In achieving these goals, the plant science 
research community will make significant contributions to:

  --exploring, conserving and utilizing our natural resources;
  --protecting, maintaining and improving crop productivity; and
  --creating new plant-inspired industries.

    Since the report's release, the community has launched the Plant 
Science Research Network to work on the next iteration and begun 
working on the development of specific recommendations in the areas of 
cyberinfrastructure, training, and broadening participation.
           robust funding for the national science foundation
    ASPB encourages strong support for the Directorate of Biological 
Sciences (BIO) and proportional funding increases across all of the 
scientific disciplines NSF supports. As scientific research becomes 
increasingly interdisciplinary with permeable boundaries, a diverse 
portfolio at NSF is needed to maintain transformational research and 
innovation.
    NSF funding for plant biology specifically enables the scientific 
community to address cross-cutting research questions that could 
ultimately solve grand challenges related to a sustainable food supply, 
energy security, and improved health and nutrition. This notion is 
reflected in the National Research Council's report ``A New Biology for 
the 21st Century.''
    NSF BIO is a critical source of funding for scientific research, 
providing the majority of the Federal support for non-medical basic 
life sciences research at U.S. academic institutions and beyond. BIO 
supports research ranging from the molecular and cellular levels to the 
organismal, ecosystem, and even biosphere levels. These investments 
continue to have significant pay offs, both in terms of the knowledge 
directly generated and in deepening collaborations and fostering 
innovation among communities of scientists. This increase is needed as 
BIO received only a 1 percent increase in fiscal year 2016, and a 2 
percent increase in fiscal year 2015, which when adjusted for 
inflation, actually represents a loss in purchasing power.
    The Biological Sciences Directorate's Plant Genome Research Program 
(PGRP) is an excellent example of a high impact program that has laid a 
strong scientific research foundation for understanding plant genomics 
as it relates to energy (biofuels), health (nutrition and functional 
foods), agriculture (impact of changing climates on agronomic 
ecosystems), and the environment (plants' roles as primary producers in 
ecosystems). ASPB asks that the PGRP be funded at the highest possible 
level and have sustained funding growth to address 21st century 
challenges. Furthermore, in light of the need to create 
cyberinfrastructure across a wide range of scientific disciplines, ASPB 
supports efforts to homogenize metadata formats and enhance data 
sharing.
    ASPB also supports the ``Understanding the Rules of Life: 
Predicting Phenotype'' initiative, part of NSF's 10 big ideas for 
future investment. The proposed initiative focuses on expanding current 
knowledge of plant genetics, the environment, and phenotypes, or an 
organism's observable characteristics. ``Understanding the Rules of 
Life'' takes a multidisciplinary approach to understanding plant 
genetics, incorporating computer science, biology, mathematics, 
engineering, and behavioral science to conduct foundational research in 
genotype to phenotype studies, plant science, microbiome, and synthetic 
biology. Research supported by ``Rules of Life'' will encourage using 
quantitative approaches to advance biological research, increasing the 
use of innovative new methods and interdisciplinary approaches to 
complex research questions.
    Without significant and increased support for BIO and NSF as a 
whole, promising fundamental research discoveries will be delayed and 
vital collaborations around the edges of scientific disciplines will be 
postponed, thus limiting the ability to respond to the pressing 
scientific problems that exist today and the new challenges on the 
horizon. Addressing these scientific priorities also helps improve the 
competitive position of the United States in a global marketplace.
 continued support for nsf education and workforce development programs
    The National Science Foundation is a major source of funding for 
the education and training of the American scientific workforce and for 
understanding how educational innovations can be most effectively 
implemented. NSF's education portfolio impacts students at all levels, 
including K-12, undergraduate, graduate, and postgraduate, as well as 
the general public.
    ASPB urges the subcommittee to support expanding NSF's fellowship 
and career development programs--such as the Postdoctoral Research 
Fellowships in Biology, the Graduate Research Fellowship (GRF) and the 
Faculty Early Career Development (CAREER) programs--thereby providing 
continuity in funding opportunities for the country's most promising 
early career scientists.
    Furthermore, the nearly 7-year median for a life-science PhD in the 
United States contrasts with other Nations where students specialize 
earlier, thus entering doctoral programs with more uniform and advanced 
scientific foundations. To focus more attention on new types of skills, 
such as private-sector experience and data-science training, NSF may 
wish to consider encouraging universities to tailor undergraduate 
curricula to allow committed students to enter PhD programs without 
needing a significant amount of textbook-style coursework. One way to 
do so would be to offer a seamless, 7-year curriculum that combines 
bachelor's and doctoral education, thereby making the career path more 
attractive and reducing costs to investigators, institutions, and 
funding bodies. NSF may wish to fund exploration and development of 
this kind of program or curriculum.
    ASPB urges support for NSF to further develop programs aimed at 
increasing the diversity of the scientific workforce by leveraging 
professional scientific societies' commitment to provide a professional 
home for scientists throughout their education and careers and to help 
promote and sustain broad participation in the sciences. Discrete 
focused training and infrastructure support programs for Hispanic 
Serving Institutions, Historically Black Colleges and Universities, and 
Tribal Colleges and Universities remain vitally important, because they 
foster a scientific workforce that reflects the U.S. population.
    ASPB urges support for education research that enhances our 
understanding of how educational innovations can be sustainably and 
most effectively implemented in a variety of settings. NSF Education 
and Human Resources programs provide opportunities to expand NSF's 
research and evaluation efforts to address scale-up and sustainability. 
ASPB encourages continued support for education research programs 
within NSF's Education and Human Resources portfolio with a focus on 
understanding how previous investments in educational strategies can be 
made most effective.
    Grand research challenges will not be resolved in a year, an 
administration, or a generation, but will take continued attention and 
investment at Federal research agencies, such as the National Science 
Foundation, over decades.
    Thank you for your consideration of ASPB's testimony. For more 
information about ASPB, please visit us at www.aspb.org.

    [This statement was submitted by Tyrone C. Spady, PhD, Director of 
Legislative and Public Affairs.]
                                 ______
                                 
  Prepared Statement of the Arctic Research Consortium of the United 
                                 States
    On behalf of the Arctic Research Consortium of the United States 
(ARCUS), I appreciate the opportunity to discuss fiscal year 2018 
Federal science funding of the National Science Foundation (NSF), the 
National Oceanic and Atmospheric Administration (NOAA), and at the 
National Aeronautics and Space Administration (NASA). ARCUS represents 
the leading Arctic research organizations and has been dedicated to 
supporting and connecting Arctic research across the boundaries of 
discipline, institution, and sector since 1988.
    Arctic research strengthens our understanding of the current rapid 
change in the region, which is affecting the lives of Americans 
everywhere. It has important effects on our national and homeland 
security, economic growth regionally and nationwide, human health, and 
coastal and community resilience. Through better knowledge of the 
Arctic, Americans can make more informed decisions in each of these 
areas.
    Aligning with like-minded science organizations and coalitions, we 
respectfully request the subcommittee provide no less than $8 billion 
for NSF (including funding parity for all directorates or at least $1.4 
billion for the Geosciences Directorate); $5.9 billion for NASA's 
Science Mission (including at least $2.03 billion for the Earth Science 
Division); and $6.1 billion for NOAA (including research, extramural 
grant programs, and education). Additionally, the Arctic research 
community is deeply concerned by the President's fiscal year 2018 
budget request to drastically reduce non-defense discretionary funding 
(-$54 billion) with draconian cuts and outright program eliminations in 
the geosciences, education, and extramural grants. Specifically, we 
oppose any reductions to NSF's geosciences or education programs, 
especially in the Office of Polar Programs; the proposed zeroing out of 
over $250 million in targeted NOAA grants and programs supporting 
Arctic coastal and marine management, research, and education, 
including its Arctic Research Program (which improves sea ice modeling 
and prediction) and Sea Grant (and its Knauss Fellowship program); and 
reducing NASA's Earth science portfolio by $102 million (slashing 
funding for Earth science research grants and terminating four Earth 
science missions).
                  arctic research: vital to the nation
Arctic Change Affects All of Us
    The U.S. is one of eight Arctic nations in the world, and our 
leadership in the region is a point of national pride. The Arctic is 
tightly connected to the rest of the U.S. through land, sea, air, and 
migratory species. Our daily weather, what we eat, and coastal flooding 
are all tied to Arctic changes. The Arctic region is rapidly and 
dramatically changing, redefining life for people and communities, 
animals and plants, ecosystem functions, and landscapes. Higher air 
temperatures, rapid retreat of sea ice, thawing permafrost, larger and 
more frequent forest fires, increasing ocean acidity, and other 
significant conditions demonstrate the altered state of the Arctic and 
have ramifications far beyond the region's borders. Examples include a 
pronounced impact on sea level rise, weakening of the jet stream and 
much more unpredictable weather in the mid-latitudes (where most of the 
U.S. is located).
    As we learn more, Arctic researchers are able to provide answers to 
the key questions of what changes we will be experiencing in weather, 
as coastal residents, in global atmospheric impacts, and as stewards of 
natural resources. Arctic research plays a key role underlying 
community resilience and the ability to adapt to change.
Arctic Research Supports National and Homeland Security
    As sea ice retreats, there is more mobility available through the 
Arctic Ocean, opening both new opportunities and new risks. Arctic 
research supports maritime domain awareness in this new open-water as 
well as situational and threat awareness in the changing region. 
Federal investment in Arctic research at NSF, NASA, and NOAA is 
required to meet the endstate goals of the U.S. Navy's Task Force 
Ocean, specifically enabling ``increased permeability between the Navy 
and government, academia, and the private sector.'' Criminal and 
terrorist networks have also discovered the Arctic, so the ability to 
monitor and limit their activities depends upon research and 
understanding. Department of Homeland Security efforts to develop and 
implement its national strategy for the Arctic strongly draw upon the 
Arctic research conducted with NSF, NOAA, and NASA support.
Arctic Research Supports Economic Growth Regionally and Nationwide
    A majority of our seafood industry is tied to Arctic and sub-Arctic 
fisheries, which depend upon environmental knowledge to manage and 
sustain these critical food resources. Billions of dollars of 
agriculture depend upon reliable and accurate weather forecasts, which 
Arctic research is improving through the understanding of Arctic-mid 
latitude connections. Opening Arctic sea routes are creating new 
economic opportunities for regional and global trade, and the research 
community is laying the foundations for how to achieve this safely and 
sustainably. Within Alaska, Arctic research guides countless management 
decisions about land use, economic development, human and social 
services, and much more.
Arctic Research Promotes Human Health
    Studies of unique Arctic organisms are supporting innovative 
approaches to battlefield medicine, stroke treatment, and developing 
cures for many other ailments. Studies of animals and plants with 
unique adaptations to cold Arctic environments can be mined to support 
a wide range of medical treatments. Residents of the Arctic (including 
Alaska) experience high rates of suicide, substance abuse, and domestic 
violence. Arctic social science research, integrated with broader 
studies of the Arctic system and context, enables quantifiable progress 
in addressing these issues regionally and nationally.
Arctic Research Enables Community Planning and Resilience
    As coastal communities nationwide plan for increased flooding and 
manage risks to lives, property, and infrastructure, Arctic research is 
helping to answer the key questions of ``how much?'' and ``how soon?'' 
Studies of the Greenland ice sheet and glaciers throughout the Polar 
regions are enabling more accurate predictions of local and global sea 
level rise. Within the region, research is enabling Alaskan communities 
to understand how thawing permafrost and related coastal erosion will 
affect vital infrastructure and community survival. As Arctic 
ecosystems change, with global ripple effects (since plants and animals 
are interconnected far beyond the region), research allows for 
foresight and planning that will enable communities nationwide to 
adapt.
    The Arctic is a sentinel site providing early indications of 
ongoing changes that are propagating around the Nation and around the 
globe. Understanding and adaptation in the Arctic will inform U.S. 
community planning and policies for decades.
Arctic Research Supports Better Decision-Making at All Levels of 
        Government and in the Private Sector
    ARCUS members adhere to the principle that decisionmaking at 
national, State, and local levels is benefited by an understanding of 
the environmental, geological, biological, cultural, and social 
factors. Arctic research enables better decisions, whether considering 
where to invest, how to defend our Nation's interests, or where to 
develop. In this time of rapid change, we need to empower decision-
makers with the best possible information about the Arctic.
                               conclusion
    Arctic research impacts every American. Across the Nation, across 
research disciplines, and across the Federal family, it is clear that 
robust and sustained Federal investments in Arctic research is key to 
addressing global and national challenges, underpinning new and growing 
economies while maintaining and supporting existing ones, and improving 
people's lives. As the subcommittee drafts the fiscal year 2018 
spending bill, we hope that you reflect on the fact that the bulk of 
the intellectual capacity regarding the Arctic research resides within 
the academic research community. Peer-reviewed extramural research is 
the most efficient and effective vehicle for providing our policy 
makers and our commercial partners with the expertise, information, and 
data necessary to address the emerging challenges facing our Nation. I 
respectfully reiterate the geoscience community's recommendation that 
the subcommittee provide no less than $8 billion for NSF (including 
funding parity for all directorates or at least $1.4 billion for the 
Geoscience Directorate); $5.9 billion for NASA's Science Mission 
(including at least $2.03 billion for the Earth Science Division); and 
$6.1 billion for NOAA (including research, extramural grant programs, 
and education). Additionally, the Arctic research community opposes the 
President's proposal to reduce NSF's geosciences and education 
programs; to zero out over $250 million in targeted NOAA grants and 
programs supporting Arctic coastal and marine management, research, and 
education, including its Arctic Research Program and Sea Grant; and to 
reduce NASA's Earth science portfolio through cuts to funding for Earth 
science research grants and terminating four Earth science missions.
    Adequate and sustained investment in research is the bedrock upon 
which this Nation's global science primacy and innovation economy are 
built. Only through the subcommittee's continued dedication to our 
Nation's science and education enterprise will this be possible.
    Mr. Chairman and Members of the subcommittee, we greatly appreciate 
the opportunity to share our recommendations, and I encourage 
bipartisan support for geoscience funding, including Arctic and Polar 
research, in the fiscal year 2018 appropriations process and into the 
future.

    Below is a list of the institutions that are members of the Arctic 
Research Consortium of the United States:

ALASKA

  Alaska Biological Research, Inc.
  Fairweather Science, LLC
  North Slope Science Initiative
  Ukpeagvik Inupiat Corporation (UIC)
    Science
  University of Alaska, Anchorage
  University of Alaska, Fairbanks

ARIZONA

  Arizona State University

COLORADO

  University of Colorado, Boulder

IDAHO

  Ecoanalysts, Inc.

MAINE

  Bates College

MASSACHUSETTS

  Tufts University, Fletcher School of
    Law & Diplomacy
  Woods Hole Oceanographic Institution
  Woods Hole Research Center

MICHIGAN

  Michigan Tech Research Institute

NEW HAMPSHIRE

  Dartmouth College

NEW JERSEY

  Rutgers, The State University of New
    Jersey

NEW MEXICO

  Sandia National Laboratories

NEW YORK

  Lamont-Doherty Earth Observatory,
    Columbia University

OHIO

  The Ohio State University

PENNSYLVANIA

  The Pennsylvania State University,
    The Polar Center

TENNESSEE

  Oak Ridge National Laboratory

TEXAS

  Texas A&M University

VIRGINIA

  U.S. Arctic Research Commission
  University of Virginia

WASHINGTON

  University of Washington

WASHINGTON, DC

  Consortium for Ocean Leadership
  The George Washington University

CANADA

  University of Northern British
    Columbia

FINLAND

  University of the Arctic

GERMANY

  Alfred Wegener Institute, Helmholtz
    Centre for Polar and Marine
    Research

NORWAY

  Norwegian Polar Institute
  UIT: The Arctic University of Norway

RUSSIA

  Russian State Hydrometeorological
    University

INDIVIDUALS

  There are also 97 individual members
    from 31 States.

    [This statement was submitted by Robert H. Rich, Ph.D., CAE, 
Executive Director.]
                                 ______
                                 
      Prepared Statement of the Institute of Makers of Explosives
                          interest of the ime
    The Institute of Makers of Explosives (IME) is a nonprofit 
association founded over a century ago to provide accurate information 
and comprehensive recommendations concerning the safety and security of 
commercial explosive materials. Our mission is to safeguard employees, 
users, the public and the environment, and to encourage the adoption of 
uniform safety and security rules and regulations in the manufacture, 
transportation, storage, handling, use and disposal of the explosive 
materials used in blasting and other essential operations. IME 
represents U.S. manufacturers, distributors and transporters of 
commercial explosive materials and oxidizers as well as other companies 
that provide related services. The majority of IME members are ``small 
businesses'' as determined by the U.S. Small Business Administration.
    Millions of metric tons of high explosives, blasting agents, and 
oxidizers are consumed annually in the United States. These materials 
are essential to the U.S. economy. Energy production, construction, 
mining, quarrying, demolition, and other specialized applications begin 
with the use of commercial explosives. IME member companies and their 
affiliates produce nearly all of the explosives used in these 
industries. Commercial explosives are used in every State and are 
distributed worldwide. The ability to manufacture, distribute, and use 
these products safely and securely is critical to our industry.
    Commercial explosives are pervasively regulated by a myriad of 
Federal and State agencies. The Bureau of Alcohol, Tobacco, Firearms 
and Explosives (ATF) plays a predominant role in ensuring that 
explosives are manufactured, identified, tracked, and stored in a safe 
and secure manner and received/possessed only by authorized persons. 
IME shares ATF's focus on safety and security, and it is from that 
perspective that we offer the following comments on the fiscal year 
2018 budget submission.
                  atf's explosives regulatory program
    IME understands the difficult decisions that ATF and the Federal 
government face when allocating scarce resources. We also understand 
the other important work and responsibilities that ATF is assigned. 
Nevertheless, the members of IME, their employees and customers rely on 
a properly funded regulatory program. The success of ATF's explosives 
programs in preventing the misappropriation of commercial explosives 
should not be seen as an opportunity to reallocate funding, but, 
rather, as confirmation that a base level of funding is necessary for 
ATF to fulfill its mission. ATF must retain a cadre of trained 
personnel to perform these vital services. The commerce of explosives 
is so closely regulated that failure to provide adequate personnel and 
resources can be detrimental to our industry, our customers, our 
employees, and the industrial sector of the U.S. economy.
    ATF is the primary Federal law enforcement agency that regulates 
the explosives industry--licensing and permitting businesses and 
individuals to engage in manufacturing, importing, or dealing in 
explosives, or receiving or transporting explosives materials.\1\ By 
law, ATF must inspect an estimated 10,000 explosives licensees and 
permittees at least once every 3 years. ATF's workload also involves 
completing background checks of employee possessors of explosives and 
responsible persons.
---------------------------------------------------------------------------
    \1\ Fiscal Year 2018 ATF Congressional Budget Submission, page 6.
---------------------------------------------------------------------------
    The workforce challenges facing the Bureau are not new, but changes 
in consumer behaviors are presenting staffing challenges. Specifically, 
the ``[m]arket demand for National Firearm Act (NFA) services continues 
to set annual records, which has resulted in a dramatic increase in 
workload over the past several years.'' \2\ The NFA requirements, 
combined with the Bureau's requirement to inspect 100 percent of the 
explosive licensees and permittees within their 3-year license/permit 
cycle, clearly indicates that the demand for resources is going up. 
While the 2018 budget proposal protects the NFA program in recognition 
of the growing workload, the proposal would eliminate 21 full time 
equivalents (FTEs) from ATF's Investigative Support Services. We are 
concerned that such action could compromise safety and security. IME 
would like to draw the attention of the committee to the staffing and 
retention challenges faced by the Bureau. Knowing that it ``typically 
takes 3-5 years of close mentoring and on-the-job training for a new 
special agent [including Certified Explosive Experts] to acquire the 
skills necessary to achieve full productivity levels,'' \3\ we 
encourage the subcommittee to continue monitoring the ATF to ensure it 
is implementing the plan to deal with the attrition of its special 
agent workforce. Additionally, IME will communicate with this 
subcommittee if ATF's efforts to service the regulated community fall 
short.
---------------------------------------------------------------------------
    \2\ IBID, 26.
    \3\ IBID, 14.
---------------------------------------------------------------------------
    In past years, IME has recommended that ATF harmonize its vetting 
and clearance procedures with those used by other Federal programs. 
Doing so would allow ATF's vetting program to be reciprocally 
recognized by these programs and save time and resources of the agency 
and the individuals being vetted. In 2015, the Department of Homeland 
Security moved to accept ATF's vetting program. However, concerns 
remain about the equivalency of the ATF program with other Federal 
vetting programs because the Bureau's program lacks recurrent vetting 
and fails to disqualify individuals on the Terrorist Watchlist. We 
strongly encourage efforts to harmonize ATF's vetting standards and 
procedures with those used by other agencies and to improve the 
timeliness of vetting programs.
                        atf-industry partnership
United States Bomb Data Center
    The U.S. Bomb Data Center (USBDC) is responsible for collecting and 
storing explosives-related incident data, to include information on 
thousands of explosives incidents investigated by ATF and other 
Federal, State, and local law enforcement agencies. While this data 
helps government entities perform trend analysis and compare incidents 
for similarities and crime methodologies, USBDC data also helps the 
industry in efforts to identify any potential weaknesses or reaffirm 
the effectiveness of safety and security practices, and to update 
industry standards accordingly.
    In 2013, USBDC reinstated the issuance of the Explosives Incident 
Report (EIR) for calendar years 2010-2013, including valuable 
information on fillers of improvised explosives devices and on thefts, 
losses, and recoveries categorized by the type and amount of explosives 
involved. IME commends ATF for continuing to share the report as the 
data helps confirm the success of industry best practices and the 
effectiveness of ATF regulations. Recently, IME reviewed 20 years of 
available ATF Explosives Incident Reports, and the use of commercial 
explosives used in domestic criminal events has remained around or 
below 2 percent. In 2015, that number was .7 percent. In 2015, thefts 
of commercial explosives dipped to a historic low of 8 total reported 
thefts. To put this in context, in the same year, the industry consumed 
over 5 billion pounds of explosives. This is clearly evidence of the 
success of IME safety and security best practices coupled with a sound 
regulatory structure.
National Center for Explosives Training and Research
    IME would like to commend ATF for its work at the National Center 
for Explosives Training and Research (NCETR), including training, 
testing and research, which is critically important for the safety and 
security of explosive materials. IME and its member companies employ 
recognized subject matter experts in the safe and secure development, 
manufacture, handling and use of commercial explosives. IME welcomes 
continued opportunities to partner with NCETR on research and testing 
initiatives related to commercial explosives and encourages the 
subcommittee to ensure that NCETR receives sufficient funding and 
resources to continue its critical work.
IMESAFR
    IME has spent over a decade developing a credible alternative to 
the 100-year-old quantity distance tables used to determine safe 
setback distances from explosives. The result is a scientifically-based 
computer model for assessing the risk from a variety of commercial 
explosives activities called IMESAFR.\4\ ATF and other regulatory 
agencies are recognizing the value of IMESAFR. In April 2015, we were 
pleased to see ATF approve the first variance from the American Table 
of Distances (ATD) based on risk assessment using IMESAFR. Since that 
time, an additional variance has been issued by ATF using the IMESAFR 
program, indicating that the Bureau is becoming more confident with the 
program the more they work with it. NCETR has partnered with IME on 
efforts to further validate IMESAFR data and ensure transparency of the 
scientific process by participating in testing and supporting an 
IMESAFR Science Panel. We welcome and strongly encourage ATF's 
continued support and leadership related to IMESAFR. Towards this end, 
IME urges the subcommittee to direct ATF to take a leadership role to 
validate an acceptable tolerable risk criteria. The establishment of a 
tolerable risk standard will provide a definitive level of risk that 
industry and other Federal entities will be able to understand and be 
able to use as a bright-line when developing projects. Additionally, 
IME urges the subcommittee to provide additional resources to ATF to 
allow them to conduct additional validation and testing in order to 
develop policies that allow the use of such models to meet regulatory 
mandates.
---------------------------------------------------------------------------
    \4\ IMESAFR was built on the Department of Defense Explosives 
Safety Board's software model, SAFER. The DDESB currently uses SAFER 
and table-of --distances methods to approve or disapprove Department of 
Defense explosives activities. Not only can IMESAFR determine the 
amount of risk presented, but it can also determine what factors drive 
the overall risk and what actions would lower risk, if necessary. The 
probability of events for the activities were based on the last 20 
years of experience in the U.S. and Canada and can be adjusted to 
account for different explosive sensitivities, additional security 
threats, and other factors that increase or decrease the base value.
---------------------------------------------------------------------------
                        international engagement
Marking Harmonization Efforts
    Explosive manufactures and importers are required to mark products 
with codes to aide law enforcement agencies in the U.S. and foreign 
countries in tracing lost or stolen materials. Additionally, others in 
the global supply chain also cooperate in these tracing efforts. 
However, more and more government entities are imposing their own 
unique system of identification marks without recognizing each other's 
marks. These redundant and competing marks create non-tariff barriers 
to trade and hampers successful tracing and investigation. We are 
pleased to inform you that IME's effort to obtain global harmonization 
of explosives security markings gained the approval of the United 
Nations Sub-committee on the Transport of Dangerous Goods (TDG) in 
December 2016. The success of the proposal is the culmination of an 
effort begun by IME in June 2013, with assistance and support of JIDO, 
JIEDAC (United Kingdom's Joint IED Analysis Center), ATF, DOT/PHMSA (as 
the U.S. delegation to the TDG), the United Kingdom, the European 
Commission, and the Federal of European Explosives Manufacturers. IME 
would like the subcommittee to know that the ATF's involvement was 
instrumental in the success of the proposal.
                           industry standards
    IME holds in high regard the statutory obligation that ATF take 
into account industry's standards of safety when issuing rules and 
requirements. We continue to fulfill this obligation through our 
development of industry best practices for safety and security, 
membership in relevant standard-setting organizations, and active 
participation in forums for training. We have offered to ATF 
recommendations that we believe will enhance safety and security 
through our participation in the rulemaking process, in the Bureau's 
important research efforts, and in other standard-setting activities.
                               conclusion
    ATF plays a critical role in helping the explosives industry 
achieve and maintain a strong safety and security record. Even though 
explosives may be dangerous materials when in the wrong hands, the 
manufacture and distribution of explosives is accomplished with a 
remarkable degree of safety and security. The use of explosives is 
essential to sustain the economy, and the explosives industry and the 
general public are dependent on ATF. The Bureau must have adequate 
resources to fulfill its mission and keep the American public safe. It 
is up to Congress to ensure that ATF has the resources it needs. IME 
strongly recommends full funding for ATF's explosives programs.

    [This statement was submitted by John Boling, Vice President of 
Government Affairs.]
                                 ______
                                 
 Prepared Statement of the Monterey Bay Aquarium, Monterey, California
    The Monterey Bay Aquarium is pleased to submit this statement on 
ocean conservation and related science issues for the subcommittee's 
consideration as it develops the fiscal year 2018 Commerce-Justice-
Science Appropriations Act.
    The mission of the Monterey Bay Aquarium is to inspire conservation 
of the ocean. We carry out this mission by providing an unparalleled 
educational experience that connects over 2 million visitors per year 
to some of the most dramatic species and ecosystems on our planet. The 
Aquarium uses innovative exhibits and educational programs to 
demonstrate the connection between the ocean and our human existence--
from the air we breathe to weather patterns and resources that drive 
our multi-billion dollar blue economy.
    The Monterey Bay Aquarium is also a leading policy advocate for 
ocean conservation and science. Given the significance of our ocean, we 
identified strategic conservation priorities to address some of the 
most pressing challenges, including plastic pollution, protecting 
wildlife and ecosystems, sustainable fisheries and aquaculture, climate 
change and partnerships. All of these initiatives are based on sound 
science and encourage partnerships with the private sector and other 
stakeholders to expand their impact.
    The Federal Government is an important partner in many of these 
initiatives, and plays a key role in supporting fundamental science and 
regulatory functions. The Aquarium has identified several high-impact 
and strategic investments within the National Oceanic and Atmospheric 
Administration (NOAA) that underpin efforts to better understand and 
manage ocean resources. We urge the subcommittee to fully support these 
programs as it develops the fiscal year 2018 appropriations bill:

    Illegal, Unreported, and Unregulated (IUU) Fishing/Seafood 
Traceability.--Global losses attributable to IUU fishing are estimated 
to be between $10 and $23 billion annually, and has links to other 
forms of criminal activity, as well as slavery and human rights abuses. 
It and undermines economic opportunities for legitimate fishermen in 
the U.S. and has global implications for national security and food 
security. Congress acted in 2015 and 2016 to pass bipartisan 
legislation to improve the U.S. response to IUU fishing. Similarly, the 
fiscal year 2017 budget specifically identified the urgent need to 
address IUU fishing through enhanced enforcement and import 
restrictions on illegally harvested and improperly-documented seafood.
    The Aquarium urges the subcommittee to provide at least $4 million 
specifically for activities to address IUU fishing in fiscal year 2018 
to ensure strong implementation of the Seafood Import Monitoring 
Program and improved international enforcement and port security 
responsibilities under the SAFE Ports Act. These funds will improve the 
ability of the Federal government to identify, inspect and enforce 
against imported IUU products coming into U.S. commerce and will 
enhance efforts to incentivize foreign compliance with international 
laws.

    Bycatch Reduction and Highly Migratory Species.--NOAA Fisheries 
(NMFS) supports research on technologies that reduce bycatch and 
bycatch mortality. Reducing bycatch can save fishing jobs by preventing 
fishery closures due to interactions with endangered species or 
attainment of strict bycatch quotas. This funding supports the Bycatch 
Reduction Engineering Program (BREP) external competitive grants 
program, which supports innovative gear designs and fishing techniques 
to minimize bycatch. We recommend the subcommittee include at least 
$2.5 million for bycatch reduction competitive grants to non-Federal 
researchers for the development and implementation of practical bypass 
solutions though research and working with U.S. fishermen on the 
development of improved fishing practices and innovative gear 
technologies.
    In addition, we note that the House report that accompanied the 
fiscal year 2017 Commerce-Justice-Science Appropriations bill included 
language on highly migratory fish species that only included the 
Atlantic Ocean and Gulf Coast. We urge the subcommittee to include the 
Pacific Ocean in this year's appropriation since there are several 
valuable highly migratory fish species, particularly Pacific bluefin 
tuna, that are adversely impacted by international fisheries practices 
in the Pacific.

    Marine Aquaculture.--The U.S. imports over 90 percent of its 
seafood, about half of which is farmed. While aquaculture globally has 
grown dramatically over the past 30 years, U.S. production remains low. 
As demand for seafood continues to rise, aquaculture presents an 
opportunity to meet this demand, create jobs and support sustainable 
development that can achieve a high environmental standard. We request 
that the subcommittee to fully fund NOAA's marine aquaculture program 
within NOAA Fisheries and in the Office of Oceanic and Atmospheric 
Research (OAR) through the Sea Grant program.

    Marine Debris.--Our ocean is at increasing risk from growing levels 
of plastic pollution. Studies estimate that an average of eight million 
metric tons of plastic enter the global ocean each year. Unless we curb 
the flow, scientists estimate that there could be one ton of plastic 
for every three tons of fish in the ocean by 2025, posing a risk to 
water quality, wildlife and human health. Ocean plastic pollution is an 
issue that is especially relevant to our millions of visitors--and to 
Californians in general, many of whom have cleaned up local beaches and 
reduced the use of plastic bags in grocery stores. For these reasons, 
we recommend funding support strengthening the NOAA Marine Debris 
Program at $8 million in fiscal year 2018. The Marine Debris program 
offers competitive grants for aquariums and others to work with 
Federal, State, and local partners on marine debris education and 
reduction projects. The Monterey Bay Aquarium has received $52,306 from 
this program for our Ocean Plastic Pollution Summit for Teachers. Over 
100 pre-K to 12th grade teachers from throughout California have 
participated in the Summit and follow-up activities, learning how to 
use the issue of ocean plastic pollution to engage their students in 
marine conservation and science.

    National Marine Sanctuaries and National Monuments.--NOAA's Office 
of National Marine Sanctuaries serves as the trustee for a network of 
underwater parks encompassing more than 600,000 square miles of marine 
and Great Lakes waters. The network includes a system of 13 national 
marine sanctuaries and Papah?naumoku?kea and Rose Atoll marine national 
monuments. Few places on the planet can compete with the diversity of 
the National Marine Sanctuary System, which protects America's most 
iconic natural and cultural marine resources. The system works with 
diverse partners and stakeholders to promote responsible, sustainable 
ocean uses that ensure the health of our most valued ocean places.
    America's underwater national treasures conserve some of the 
Nation's most critical natural, historic and cultural resources such as 
the USS Monitor, Midway Island, sacred heritage sites for Native 
Americans, and some of the largest and oldest corals in the world. They 
are home to millions of species, preserve more than 300 shipwrecks and 
our Nation's maritime heritage, and promote public access for 
exploration and world-class outdoor recreation and enjoyment for future 
generations. They generate $8 billion annually in local economies and 
support numerous jobs and businesses in the fishing, tourism, 
recreation, and scientific research sectors. Sanctuary visitor centers, 
vessels, and facilities are key assets for communities; stimulate 
public-private partnerships on emerging technologies, cutting edge 
science, and hands on education; and attract millions of visitors to 
the coasts each year. We request the subcommittee fund the National 
Marine Sanctuaries program with sufficient funding to support the 
current national marine sanctuaries and Papahanaumokuakea, Rose Atoll 
and New England Coral Canyonsarine national monuments.

    NOAA Office of Education.--The Aquarium provides a wide variety of 
educational experiences for students, teachers, and families all 
designed to inspire ocean conservation. We support local schools by 
hosting field trips and hands-on learning experiences for students, as 
well as offering professional development activities for teachers. 
NOAA's education programs are an integral part of the national effort 
to educate and train our workforce for the future--a workforce 
knowledgeable about the world around us and therefore able to 
participate in decisionmaking as it relates to our ocean and coastal 
resources. We urge the subcommittee to reject the administration's plan 
to terminate NOAA education programs and support them at the following 
levels: $8,000,000 for the Environmental Literacy Grants Program, 
including ocean education grants and $12,000,000 for the Bay, 
Watershed, Education and Training Program.

    Conclusion.--The Aquarium fully appreciates the extreme budget 
constraints confronting the Congress and the Executive Branch and the 
intense scrutiny that must be applied to all Federal programs. 
Nevertheless, we believe ocean conservation and science programs are an 
investment in the future health, well-being, and economic 
competitiveness of our Nation. Thank you for the opportunity to provide 
the Aquarium's views on these ocean conservation and science issues.

    [This statement was submitted by Ms. Margaret Spring, Vice 
President of Conservation & Science and Chief Conservation Officer.]
                                 ______
                                 
 Prepared Statement of the National Association of Marine Laboratories
    The National Association of Marine Laboratories (NAML) is pleased 
to submit this testimony to the subcommittee for consideration in the 
fiscal year 2018 Commerce-Justice-Science Appropriations Act. In this 
statement, we provide our recommendations for the National Science 
Foundation (NSF), the National Oceanic and Atmospheric Administration 
(NOAA), and the National Aeronautics and Space Administration (NASA) 
that we believe would strengthen the Nation's research and education 
enterprise. The network of the Nation's marine laboratories is cost 
effective, highly relevant, and the vehicle that brings science to 
those who depend on research results to protect lives and support 
livelihoods.
                             naml's message
    This subcommittee is uniquely responsible for the health of our 
Nation's research and education enterprise. Much of the Federal 
extramural nondefense, non-biomedical support for research and 
education is provided by this subcommittee. Thus, this subcommittee is 
in a unique position to impact the Nation's long term economic growth, 
national security, and public safety through its investments in the 
agencies under its jurisdiction.
    The value of research investments is borne out by history. 
According to economists Charles Jones and John Williams of Stanford 
University, the National Bureau of Economic Research, and the Federal 
Reserve Bank of San Francisco, the return on investment for publicly 
funded scientific research and development is somewhere between 30 
percent and 100 percent.\1\ Given the importance of the research 
investment to the economic health of the country, NAML is disappointed 
by the administration's fiscal year 2017 Supplemental and the fiscal 
year 2018 budget requests which seek to reduce programs that are 
critical to the sustainability and creation of jobs and associated 
economic benefits. This includes funding for NSF research and 
education; eliminate over $250 million in targeted NOAA grants and 
programs supporting coastal and marine research, education, and 
management, including Sea Grant and Knauss Fellowship program; and 
reductions in earth science research at NASA by over $100 million 
including major reductions for Earth science research grants.
---------------------------------------------------------------------------
    \1\ Charles Jones and John Williams, ``Measuring the Social Return 
to R&D'' (1997), available at http://ssrn.com/abstract=2155.
---------------------------------------------------------------------------
        naml priorities and recommendations for fiscal year 2018
    NAML is a nonprofit organization representing the ocean, coastal 
and Great Lakes interests of member laboratories that employ thousands 
of scientists, engineers and professionals nationwide. NAML labs 
conduct high quality research and education in the natural and social 
sciences and translate that science to improve the decisionmaking by 
policy officials on important issues facing our country and fostering 
economic development. NAML's priorities are drawn from and strongly 
support two important reports from the National Academy of Sciences. 
They are: ``Sea Change: 2015-2025 Decadal Survey of Ocean Sciences 
(DSOS)''; and ``Enhancing the Value and Sustainability of Field 
Stations and Marine Laboratories in the 21st Century.''
    A recent report from the Center for the Blue Economy \2\ reported 
that the ocean economy generated a larger share of U.S. economic 
activity than farming, food products, oil and gas extraction, and 
forest products. Employment supported by the ocean economy is almost as 
large as the employment of these industries combined. The Great Lakes 
alone generate nearly $5 trillion in economic activity or about 30 
percent of combined U.S. and Canadian economic output. Finally, the 
U.S. marine transportation system is an essential driver of the U.S. 
economy and its impact is felt well beyond the coast and reaches into 
the heartland of the Nation. America's seaports are crucial generators 
of economic development and well-paying jobs, both regionally and 
nationally, that is felt throughout all supply chains that use the 
ports.
---------------------------------------------------------------------------
    \2\ State of the U.S. Ocean and Coastal Economies--2016 Update, 
Middlebury Institute of International Studies at Monterey, Center for 
the Blue Economy.
---------------------------------------------------------------------------
    The ocean, coastal, and Great Lakes network of NAML laboratories, 
is a vital part of the Nation's research and education enterprise. That 
enterprise is a critical contributor to the economic and environmental 
health of the Nation. The Nation is faced with a widening gap between 
the actual level of Federal funding for research and education and the 
required investment to sustain the U.S. as the world's leader in 
innovation. Accordingly, NAML's priorities are:

  --The Nation should build on its investment in research to develop 
        the knowledge, people, and technologies that power the ocean 
        and coastal economies, create jobs, improve health, strengthen 
        our national security, and support the U.S. as the global 
        innovation leader. The key programs that support this goal 
        include:

    --NSF funding for research, training, infrastructure, and education 
            much of which is supported by the Directorates for 
            Geosciences and Biological Sciences;
    --Extramural funding provided by NOAA Research (OAR) including 
            funding the National Sea Grant College Program at $80 
            million and marine aquaculture;
    --NOAA National Estuarine Research Reserves at $27 million in 
            fiscal year 2018 and National Centers for Coastal Ocean 
            Science; and
    --NASA Earth Sciences.

  --This investment should include ocean observations, data 
        integration, and related cyber and physical infrastructure; 
        monitoring, research, and response to changing environmental 
        conditions such as:

    --NSF's Field Stations and Marine Laboratories (FSML) at $6 
            million;
    --NOAA Integrated Ocean Observing System program at $43 million;
    --Research and Monitoring for Ocean Acidification; and
    --NSF's Long Term Ecological Research program and HBCU Research 
            Infrastructure for Science and Engineering (RISE)

  --Renew the commitment to improve the quality of STEM education and 
        re-energize efforts to attract, recruit, support, and retain 
        women, minorities and others not currently well represented in 
        the science and technology workforce through the following 
        programs:

    --NSF's Research Experiences for Undergraduates (REU), its 
            Alliances for Minority Participation, the graduate and post 
            graduate fellowship programs at NSF, NOAA, and NASA; and
    --Reject the Administration's proposal to terminate the NOAA and 
            NASA Offices of Education

    NAML is concerned by the administration's recommendations for 
reductions to NSF, NASA and NOAA as part of the fiscal year 2017 
Security Supplemental and the fiscal year 2018 budget requests which 
seek to reduce support for the National Science Foundation (especially 
in the Geosciences and for education); eliminate over $250 million in 
targeted National Oceanic and Atmospheric Administration (NOAA) grants 
and time-tested programs in coastal and marine management, research, 
and education such as Sea Grant and Knauss Fellowship program; and a 
reduction in earth science research at NASA by over $100 million 
including major reductions for Earth science research grants.
    The time-tested programs, that support the extramural research and 
education community via competitive, merit-based research, provide 
cost-effective and impressive returns on investment, leverage 
additional resources to meet science and management priorities, 
distribute economic and societal benefits over a broad array of 
communities, and provide the agency with valuable flexibility. Yet, in 
fiscal year 2017 and fiscal year 2018 the Administration is proposing 
steep reductions in these extramural programs. Additionally, past 
Administrations have sought authority for NOAA to ``receive and expend 
funds made available by, any . . . private organization, or individual 
(i.e. proposed Section 108 of the General Provisions in the NOAA 
Section of the Appendix to the fiscal year 2016 Budget, page 218).'' 
NAML is concerned that this could result in the Federal Government 
competing with non-Federal and private entities for limited private 
sector support.
    NAML requests the subcommittee to reject the Administration's 
proposed reductions for research, infrastructure, and education and 
training. Instead, NAML urges the subcommittee to invest in the future 
of the Nation by supporting the ocean, coastal, and Great Lakes 
research and education enterprise represented in part by the NAML 
priorities articulated in this statement. NAML also requests the 
subcommittee to continue its vigilance regarding proposals that would 
result in unfair competition with the private sector.
          the value of the nation's coastal and ocean economy
    More than half of the United States population lives in coastal 
counties that generate 58 percent ($8.3 trillion) of the Nation's gross 
domestic product (GDP). In 2011, Americans, on average, ate 15 pounds 
of fish and shellfish per person--4.7 billion pounds altogether--making 
the U.S. second in the world in total seafood consumption. The United 
States is the leading global importer of fish and fishery products, 
with 91 percent of the seafood we eat originating abroad--half of which 
is from aquaculture. Driven by imports, the U.S. seafood trade deficit 
has grown to over $11.2 billion annually. Federal aquaculture programs, 
working in partnership with marine laboratories, offer the opportunity 
to advance U.S. aquaculture to reduce the seafood trade deficit. 
Tourism is a major economic driver in coastal States. The U.S. has 
jurisdiction over 3.4 million square miles of oceans--an expanse 
greater than the land area of all 50 States combined. This is a dynamic 
area with biologically diverse habitats that provide a wealth of 
natural resources and economic opportunities, while at the same time 
exposing human and biological communities to coastal hazards such as 
storms and hurricanes, shifting shorelines, outbreaks of harmful algal 
blooms, and water-borne pathogens.
    Research conducted by people educated and trained, in part, at the 
Nation's network of marine laboratories has uncovered the linkage 
between changes in ocean temperature and its impact on the lobster 
industry; the role science can play to maximize the return on shoreline 
restoration; and the impact of ocean acidification on the oyster 
industry. Training and research centered in the Nation's network of 
marine laboratories should:

  --develop vital, lifesaving adaptive and mitigation strategies to 
        enhance coastal resiliency with forthcoming environmental 
        challenges facing the Nation;
  --develop a deeper fundamental understanding of earth system science 
        so that we can more accurately predict severe weather and 
        climate changes on local, regional, national, and global 
        scales;
  --develop technologies that will increase the competitiveness of the 
        U.S. aquaculture industry, and contribute to sound fishery 
        management practices, which enhance food security and by access 
        to safe, sustainable, and healthy seafood; and
  --lead to the discovery of new marine biological agents that may 
        prove valuable in the treatment of diseases and other ailments.

    To develop the knowledge and technologies needed to meet these and 
other challenges in the ocean, coastal, and Great Lakes environment, it 
will take the continued education and training of people in science, 
technology, engineering, and mathematics (STEM). This calls for a 
renewed commitment to improve the quality of STEM education at the pre-
K levels and continuing on through the undergraduate and graduate 
levels that will attract and retain women, minorities, and others not 
currently well represented in our scientific and technical workforce.
                               conclusion
    This subcommittee is uniquely responsible for the health of our 
Nation's research and education enterprise. Over 50 percent of the 
extramural nondefense, non-biomedical Federal support for research and 
education is provided by this subcommittee. Thus, the subcommittee is 
in a unique position to impact the Nation's long term economic growth, 
national security, and public safety through its investments in the 
agencies under its jurisdiction. The economic value of research 
investments is borne out by history. While we appreciate, the difficult 
constraints facing the Nation and this subcommittee we hope the 
subcommittee will continue to be a leading and influential voice in the 
health of the Nation's research enterprise via the decisions it makes 
in developing the fiscal year 2018 Commerce-Justice-Science 
Appropriations Act.
    NAML is grateful for the opportunity to provide the subcommittee 
with our members' priorities and recommendations.

    [This statement was submitted by Mr. Michael De Luca, President.]
                                 ______
                                 
              Prepared Statement of the Ocean Conservancy
    Thank you for this opportunity to provide Ocean Conservancy's 
recommendations for fiscal year 2018 funding for NOAA. Ocean 
Conservancy has worked for over 40 years to address threats to the 
ocean through sound, practical policies that protect our ocean and 
improve our lives. We support funding for NOAA at or above fiscal year 
2016 funding levels.
    NOAA's mission to understand, protect, restore, and manage our 
ocean, coasts, and Great Lakes is vitally important to sustain these 
resources and our economy. The U.S. ocean and coastal economy 
contributes $359 billion annually to the Nation's GDP and supports 3 
million jobs. There is a good reason that NOAA is in the Department of 
Commerce, and adequate funding is vital to support a healthy and 
resilient ocean that can maintain and grow our coastal economies and 
communities. For example, our Nation's fisheries and seafood sector is 
a $214 billion dollar industry and fishermen rely on information from 
NOAA to make the most informed decisions on where to fish, how to fish 
and when to fish. Coastal wetland buffer zones in the U.S. are 
estimated to provide $23.2 billion per year in storm protection, and 
NOAA works to build resilient coasts that are more storm-ready and 
prepared for threats like sea level rise and ocean acidification.
    Much of the U.S. ocean is under Federal jurisdiction, and yet many 
of NOAA's programs focus on pushing resources and decisionmaking power 
out to regions, States and communities. From region-by-region fishery 
management, to region-specific programs in places like the Arctic, to 
extramural funding that supports State agencies and universities, to 
place-based conservation in our estuaries and oceans, NOAA is providing 
leverage for hardworking people on the coast and on the water who are 
fighting for a stronger economy and a healthier ocean.
    We ask that you also consider the balance between NOAA's oceanic 
and atmospheric missions, and the nexus between the two. Americans 
should not have to choose between weather satellites and ocean and 
coastal resources like coral reefs and marine mammals. We need both. 
NOAA's ocean programs support many other Federal agencies and missions 
that will also suffer if NOAA funding is cut. For example, ocean 
observations and monitoring provide critical information for severe 
storm tracking and weather forecasting. And ocean programs facilitate 
homeland security and national defense functions, including U.S. Navy 
operations and U.S. Coast Guard search and rescue.
    In particular, we recommend the following NOAA programs be funded 
at or above fiscal year 2016 funding levels. See below for further 
explanation.

------------------------------------------------------------------------
                                                      Fiscal year 2016
           Account, Program or Activity             enacted ($ millions)
------------------------------------------------------------------------
        Operations Research and Facilities
 
National Ocean Service:
    Coastal Science, Assessment, Response and                      6
     Restoration: Marine Debris..................
    Coastal Management Grants....................                 75
 
National Marine Fisheries Service:
    Marine Mammals, Sea Turtles, & Other Species.                110.246
     Fisheries Data Collections, Surveys and                     163.271
     Assessments.................................
    Habitat Conservation and Restoration.........                 61.408
 
Office of Oceanic and Atmospheric Research:
    National Sea Grant College Program...........                 73
    Integrated Ocean Acidification...............                 10
 
Office of Marine and Aviation Operations:
    Marine Operations & Maintenance..............                178.838
------------------------------------------------------------------------

            marine debris: recommend increase to $10 million
    Marine debris, particularly plastic waste pollution, has become one 
of the most widespread pollution problems facing the world's oceans and 
waterways. An estimated 150 million metric tons of plastic waste are in 
the ocean today, and every year an estimated 8 million metric tons more 
are being added. With oil prices at an all-time low, coupled with 
growing population levels and economic prosperity, plastic production 
and consumption are predicted to double over the coming decade. Without 
immediate intervention, 250 million metric tons of plastic waste could 
be in the ocean in fewer than 10 years. Marine debris has serious 
effects on the marine environment and the economy, causing impacts from 
wildlife entanglement, ingestion and ghost fishing to navigational 
hazards and vessel damage.
    The program is authorized at $10 million, but has been flat-funded 
at $6 million since fiscal year 2014. Given the magnitude of the 
problem, there is an urgent need for the NOAA Marine Debris Program to 
do more to counter the growing threat to ocean health. Fundamental 
knowledge gaps exist in four critical areas: the sources of plastic 
waste in the ocean, how the waste distributes within the marine 
environment, the fates of those materials, as well as their impacts. 
More scientific research into these key areas will support data-driven 
policy solutions to prevent plastic from entering the environment and 
impacting ocean health. Additional funding will enable NOAA MDP to 
support this additional research.
                       coastal management grants
    The Coastal Zone Management Program achieves multiple goals for 
coastal communities including economic development, enhancement of 
public access and recreation, and protection of coastal resources. The 
CZM program provides Federal support for these State programs to ensure 
that as a Nation, all coastal States and territories can enable their 
coastal communities to achieve both State and national priorities. This 
State-Federal partnership also enables States to leverage Federal funds 
to improve permitting processes, provide grants to communities, and 
ensure Federal actions are consistent with State laws. Moreover, the 
CZMA requires a dollar-for-dollar State match for almost all Federal 
funding, with States matching over $59 million fiscal year 2016.
    In addition, Regional Coastal Resilience Grants are producing on-
the-ground results through regional ocean partnerships, with grants 
going out to every region over the last 2 years. The resilience of our 
coastal communities is a critical mission for NOAA. Resilient means 
more than just storm-ready. Truly resilient communities are able to 
effectively adapt to changing economic, social, and environmental 
conditions over time and effectively respond to new challenges and 
threats to infrastructure, community well-being, and ecosystem health.
    We support funding at or above fiscal year 2016 levels to continue 
the success of the CZM program and to meet significant demand for RCRG, 
as demonstrated by more than $150 million in grant applications last 
year.
             marine mammals, sea turtles and other species
    NOAA's work to protect living marine resources is important 
nationwide, but is especially critical in the Gulf of Mexico region. We 
were disappointed that least year's requested $13.452 million increase 
for Marine Mammals has not yet been funded, in particular because it 
would have supported increased capacity for restoration efforts in the 
Gulf region. This year we support continued funding at or above fiscal 
year 2016 funding levels, including for the John H. Prescott Marine 
Mammal Rescue Assistance Grant Program, which funds the first 
responders for sick or dying marine mammals.
          fisheries data collections, surveys and assessments
    We support funding for programs that implement the Magnuson-Stevens 
Fishery Conservation and Management Act. As we review the Act for 
reauthorization, it is important to note that the Act is working--NOAA 
has made great strides towards ending overfishing and continued 
investments in these programs are needed.
    This recently consolidated budget line supports a host of 
activities critical to MSA implementation. For example, it provides 
resources for fisheries managers to assess priority fish stocks, 
implement the requirement for annual catch limits (ACLs), and ensure 
the successful recovery of overfished populations. Stock assessments 
give fishery managers greater confidence that their ACLs will avoid 
overfishing while providing optimal fishing opportunities. We also 
support funding for the Marine Recreational Information Program. 
Despite their often sizeable economic and biological impacts, much less 
data are collected from recreational saltwater fisheries than 
commercial fisheries due to the sheer number of participants and 
limited sampling of anglers' catches. The low level of data collection 
and lack of timely reporting of data in these fisheries is a large 
source of uncertainty and has become a flashpoint for controversy in 
regions where catch restrictions have been adopted to rebuild 
overfished stocks, particularly in the Southeast. By all accounts, 
improved sampling and timelier reporting of catch data are needed for 
successful management of marine recreational fisheries.
    We support funding for electronic monitoring and reporting for 
nationwide efforts. In particular we support funding that goes to the 
Gulf of Mexico region, where managers need electronic monitoring to 
keep track of catch and prevent overruns in the red snapper fishery, 
there is significant need for additional funding. Based on the findings 
of the November 2014 ``Technical Subcommittee Report to the South 
Atlantic and Gulf of Mexico Fishery Management Councils: 
Recommendations for Electronic Logbook Reporting'' NOAA's requested 
increases are only a portion of what is needed to support effective 
electronic monitoring. The Gulf of Mexico region alone will require 
more than $5 million annually to support electronic monitoring.
                  habitat conservation and restoration
    Restoration of the Gulf of Mexico in the wake of the BP Deepwater 
Horizon oil disaster and years of environmental stressors is only in 
its early stages. It is critical that NOAA's expertise be deployed 
effectively to support and carry out restoration efforts. In 
particular, NOAA's Restoration Center is providing key coordination and 
expertise to government-wide restoration efforts. For example, it is 
clear that the Restoration Center will serve as a center of gravity for 
the Open Ocean Trustee Implementation Group. In order to effectively 
lead this effort, the Restoration Center must be sufficiently resourced 
and it must also have the support and services needed from other parts 
of NOAA.
                   national sea grant college program
    Sea Grant is a joint Federal-State investment that supports the 
health and resilience of the Nation's coastal communities, yielding 
quantifiable economic, social, and environmental benefits at the 
national, regional, State, and local levels. In 2015-2016 the Sea Grant 
program helped generate an estimated $575 million in economic impacts; 
created or sustained nearly 21,000 jobs; provided 33 State-level 
programs and 534 communities with technical assistance on sustainable 
development practices; worked with about 1300 industry, local, State 
and regional partners; and supported the education and training of 
almost 2000 undergraduate and graduate students. The Sea Grant program 
achieved this with a Congressional appropriation in fiscal year 2016 of 
$73 million, which is leveraged with matching funds provided by States, 
universities, and other sources.
      integrated ocean acidification: increase to $21.775 million
    The Integrated Ocean Acidification line-item funds NOAA's ocean 
acidification program (OAP), which was established and mandated by the 
Federal Ocean Acidification Research and Monitoring (FOARAM) Act of 
2009. Under FOARAM, OAP is directed to ``provide grants for critical 
research projects that explore the effects of ocean acidification on 
ecosystems and the socioeconomic impacts of increased ocean 
acidification,'' establish long-term monitoring, identify adaptation 
strategies, and conduct public outreach.
    Ocean acidification (OA) is the rise in acidity of the earth's 
ocean caused by uptake of CO<INF>2</INF> from the atmosphere. This 
rising acidity makes it harder for shell-forming species such as 
oysters and crabs to grow, and fundamentally alters many other 
processes (e.g., reproduction, risk avoidance) necessary for healthy 
ecosystems and the coastal industries that depend on them. Prior 
Federal investments in OAP, such as FOARAM, have greatly expanded our 
knowledge of OA and its risks to coastal communities and industries, 
but current funding levels are not at the scale needed to understand 
this global problem and its full impacts.
    We recommend a funding level of at least $21.775 million for this 
program, which is the amount requested by the program in fiscal year 
2017.
                   marine operations and maintenance
    Marine Operations and Maintenance should be funded at or above the 
fiscal year 2016 level. Days at sea funded by this line are 
functionally tied to fishery stock assessments, and the two programs 
must be viewed together.

    [This statement was submitted by Jeff Watters, Director, Government 
Relations.]
                                 ______
                                 
 Prepared Statement of Organizations and Institutions Regarding Fiscal 
               Year 2018 Funding for NSF, NASA, and NOAA
    Dear Mr. Chairman and Members of the subcommittee: Thank you for 
the opportunity to present testimony from the organizations and 
institutions listed in the left-hand margins recommending strong and 
balanced funding for the research programs of NSF, NASA, and NOAA. A 
strong and balanced research portfolio should include support for the 
geosciences--by which we mean the earth sciences, the ocean sciences, 
and the atmospheric sciences.
    These disciplines are vital contributors to this Nation's national 
security, economic competitiveness, and public safety.
    While an estimated $60 billion in losses were attributed to 
Superstorm Sandy, the accurate forecast enabled evacuations and other 
actions that saved an enormous number of lives. Hundreds of thousands 
of people lived on land flooded catastrophically by the storm, but the 
total number of deaths was less than 150, due to timely warnings and 
evacuations. The impact would have been much worse if Sandy had hit 
just 15 years ago, when hurricane forecasts extended only 3 days into 
the future, as opposed to 5 days in 2012. Over the last several 
decades, forecasts have improved steadily in accuracy, due to 
continuous improvements in both observations from satellites and 
aircraft, in the weather prediction models, and in the data 
assimilation methods used to combine models and observations to produce 
forecasts. Without these advances--all built on the foundation of broad 
and deep research programs at NOAA, NASA, and NSF--forecasters would 
never have seen Sandy's last minute westward turn into New Jersey, but 
with them they were able to see it 5 days ahead of time. The resulting 
accurate and timely forecasts by our academic-government-commercial 
weather enterprise allowed nearly a week of preparations by governments 
(local, State, and Federal), businesses, institutions, and families, 
and undoubtedly made a life or death difference for many thousands of 
people?
    How did we acquire this life-saving weather forecasting system? The 
short answer is that consistent funding for research, observations, 
infrastructure, and training by the Federal research agencies, thanks 
to this subcommittee, the Congress, and ultimately the taxpayers--in 
science, technology, engineering, mathematics, and education--produced 
that capability. These investments supported everything from basic 
research in mathematics and the physical sciences, the computer 
sciences, and the geosciences to the development of sophisticated 
models, satellites, radar, and parachute-borne instrument packages that 
could make the key observations. Those investments also allowed us to 
develop an understanding of how the Earth, the oceans, and the 
atmosphere collectively impact our weather and the environmental 
conditions that ensued. They enabled us to develop and run forecast 
models on advanced computing systems that turned huge amounts of raw 
observations into ``actionable advice'' for businesses, local and State 
governments, and our citizens. These advances were coupled with 
investments in education and training that created the talented and 
dedicated workforce needed to put it all together. Finally, a host of 
innovative technologies and the application of social science-informed 
best practices in communications allowed all this information to be 
presented in a manner that people could understand and on which they 
could act.
                 the geosciences and national security
    In September 2016, the Center for Climate and Security released a 
report entitled, ``Military Expert Panel Report--Sea Level Rise and the 
U.S. Military's Mission.'' The panel included retired flag officers 
from all the Armed Services: General Ronald Keys, USAF (ret); 
Lieutenant General John Castellaw, USMC (ret); Vice Admiral Robert 
Parker, USCG (ret); Rear Admiral Jonathan White, USN (ret); and 
Brigadier General Gerald Galloway, USA (ret). The expert panel 
concluded that risks of sea level rise to coastal military 
installations and supporting civil infrastructure will present serious 
threats to military readiness, operations, and strategy. The panel 
concluded that policies and plans for addressing climate change risks 
must go beyond infrastructure resilience, and into the realm of 
operations and strategy.
    The authors recommend that policy-makers support comprehensive and 
preventive measures to address increasing risks from sea level rise. 
Recommendations included: building capacity to address infrastructural, 
operational, and strategic risks; gaming out catastrophic climate 
scenarios in planning; tracking trends in climate impacts; and 
collaborating with adjacent civilian communities. To get ahead of the 
risks, policy makers will need the research and the educated and 
trained workforce that comes from the geosciences community. They will 
need the basic research, computing, and modeling that comes from the 
support NSF provides the academic research community. They will also 
need the data, observational capabilities, computing, and modeling that 
NASA and NOAA can provide.
        the geosciences--producing a workforce for u.s. industry
    The geosciences research that NSF, NASA, and NOAA fund helps 
educate and train the next generation of geoscientists. Using data 
provided by the Bureau of Labor Statistics, the American Geosciences 
Institute calculated a total of 324,411 geoscience jobs in 2014, and 
this number is expected to increase by 10 percent by 2024 to a total of 
355,862 jobs. Approximately 156,000 geoscientists are expected to 
retire by 2024, but over the next decade, approximately 58,000 students 
will be graduating with their bachelor's, master's, or doctoral degrees 
in the geosciences. According to the American Geosciences Institute's 
(AGI) ``Status of the Geoscience Workforce 2016,'' given minimal non-
retirement attrition from the geoscience workforce, there is expected 
to be a deficit of approximately 90,000 geoscientists by 2024.
    Industry hiring of geoscience graduates fluctuates between sectors, 
with the oil and gas sector taking on some 60 percent of recent 
Master's graduates who gained employment in the geosciences, and the 
environmental services sector hiring the largest share (31 percent) of 
recent Bachelors graduates who stayed in the geosciences, according to 
the American Geosciences Institute's ``Status of Recent Geoscience 
Graduates 2016'' report. Other industries hiring geoscientists include 
mining, construction, agriculture, transportation, and information 
technology services, all of which contribute to our national 
infrastructure. NSF, NASA, and NOAA support for the geosciences 
contributes significantly to the education and training of these 
individuals via programs in research, graduate and undergraduate 
student support.
    the geosciences and economic competitiveness--research yielding 
                           economic benefits
    The Federal investment in the geosciences provided the fundamental 
understanding of geologic structures and processes necessary to utilize 
hydraulic fracturing (fracking) processes to release oil from shale 
formations. The ability of U.S. companies to develop these natural 
resources is built upon decades of fundamental research and technology 
development in the earth sciences. According to a 2013 report from U.S. 
Chamber of Commerce's 21st Century Energy Institute, fracking has 
created a job boom even in States that don't have shale deposits, with 
1.7 million jobs already created and a total of 3.5 million projected 
by 2035.
    Research on hot-spring-dwelling microbes in Yellowstone National 
Park resulted in development of the polymerase chain reaction (PCR), a 
technology that made the molecular biology revolution possible. 
Scientists discovered that hot spring microbes utilize enzymes that are 
resistant to the high temperatures required for PCR. PCR is the process 
by which scientists can generate copies of a single strand or piece of 
DNA and is indispensable for the multi-billion-dollar biotechnology 
industry.
    Moreover, private enterprise--ranging from insurance companies and 
large engineering firms to the marine and overland shipping sectors and 
to small farmers--increasingly relies on the results of the long-term 
weather, climate, and other natural hazards research enabled by 
government and university scientists to make strategic management 
decisions. The Nation's private sector needs to incorporate weather and 
climate risks into its risk-management portfolios to remain globally 
competitive. Industries that rely on global supply chains and 
distribution centers, such as the major overnight shipping companies, 
are beginning to use the results of fundamental geoscience research in 
their day-to-day decisionmaking as well as long-term strategic 
planning.
                   the geosciences and public safety
    The benefit of the investment in public weather forecasts and 
warnings is substantial: the estimated annualized benefit is about 
$31.5 billion, compared with the $5.1 billion cost of generating the 
information (Lazo et al., 2009). In 2016, there were 15 weather and 
climate disaster events with losses exceeding $1 billion each across 
the United States. These events included a drought event, four flooding 
events, eight severe storm events, a tropical cyclone event, and a 
wildfire event. Overall, these events resulted in the deaths of 138 
people and had significant economic effects on the areas impacted.
    We continue to experience extreme weather events in nearly every 
region of the country. Tornadoes in Oklahoma, Kansas, and Missouri; 
floods in Louisiana; droughts in Texas; and blizzards in New England. 
According to the NAS Report, When Weather Matters, the annual impacts 
of adverse weather on the national highway system and roads are 
staggering: 1.5 million weather-related crashes with 7,400 deaths, more 
than 700,000 injuries, and $42 billion in economic losses (BTS, 2007) 
and $4.2 billion is lost each year because of weather-related air 
traffic delays (NOAA, 2010). The death, destruction, and economic harm 
communities and businesses experience from these and other weather 
events could be further reduced with continued research and training in 
the geosciences.
    Technologies and observing systems developed to examine the 
fundamental earth structure have also provided data and enabled models 
necessary for forecasting and estimating the impact resulting from 
major earthquakes, tsunamis, volcanic eruptions, and landslides. 
Understanding of disaster events enables business and government to 
engage in informed risk management and mitigation and to develop 
response strategies. When an event does occur, early warnings for 
evacuation based on timely forecasts and characterization of these 
disasters has the potential to save billions of dollars and countless 
lives. For example, EarthScope is a NSF program that has deployed 
thousands of seismic, GPS, and other geophysical techniques to explore 
the structure and evolution of the North American continent and to 
understand the processes controlling earthquakes and volcanoes. 
Thousands of geophysical instruments create a dense grid covering the 
continental United States. Scientists from multiple disciplines have 
joined together to conduct research using the large influx of freely 
accessible data being produced. The data collected through EarthScope 
and other NSF research investments are critical for the development of 
an earthquake early warning system. As the data is collected and 
disseminated in real-time, computers, communications technology, and 
alarms are devised to notify the public when an earthquake is in 
progress. Just ten seconds of warning that an earthquake is occurring 
is enough to halt trains, shut off gas lines, and open emergency bay 
doors for first responders.
                          concluding thoughts
    We appreciate the difficult decisions Congress must make within the 
constraints of the budget environment. We have provided several 
examples where the geosciences contribute to the Nation's national 
security, economic competitiveness, and public safety. We believe that 
the future of this Nation is well served by a strong and sustained 
investment in the full scope of our research enterprise--including the 
geosciences programs sponsored by NSF, NASA, and NOAA. This 
subcommittee has consistently been a strong champion for the Nation's 
research enterprise and, despite the budget challenges that it must 
confront, we urge you to maintain the high priority the subcommittee 
has long placed on research and training in all fields of science and 
engineering.

    This statement was submitted by the following organizations and 
institutions:

Lamont-Doherty Earth Observatory, Earth Institute, Columbia University
University Corporation for Atmospheric Research
National Association of Marine Laboratories
Consortium for Ocean Leadership
Incorporated Research Institutions for Seismology
American Geophysical Union
American Meteorological Society
Association of Public and Land-grant Universities
Aerospace Industries Association
The Weather Company, an IBM Business
Vaisala, Inc.
Atmospheric and Environmental Research, Inc.
Cleantech San Diego
Aquaai Corporation
Highwave Ocean Energy
MRV SYSTEMS LLC (Marine Robotic Vehicles)
Ocean Innovations
RBR USA
American Wave Machines, Inc.
Reinsurance Association of America
American Energy Society
Catalina Offshore Products Inc.
Analytics Ventures
Grassy Bar Oyster Company, Inc.
Teledyne RDI Instruments
Assure Controls, Inc.
BMT Group
Deep Ocean Engineering, Inc
OceanGate, Inc.
FlyWire Cameras
National Instruments
Ocean Aero, Inc.
Del Mar Oceanographic
Woods Hole Oceanographic Institution
UC San Diego's Scripps Institution of Oceanography
The Geological Society of America
American Geosciences Institute
University of California System
Penn State University
University of Oklahoma
University of Wisconsin-Madison
University of Massachusetts Dartmouth
University of California, Irvine
University of Georgia
University of Arizona
University of Washington
The University of Texas at Austin
Texas A&M University
University of Colorado Boulder
Oregon State University
University of New Hampshire
University of Delaware
Colorado School of Mines
University of California, Davis
Iowa State University
Michigan Technological University
School of Ocean and Earth Science and Technology, University of Hawaii 
at Manoa
Rutgers University--New Brunswick
Hubbs-SeaWorld Research Institute
Institute at Brown for Environment and Society, Brown University
The University of Texas at Austin Marine Science Institute
Annis Water Resources Institute, Grand Valley State University
National Snow and Ice Data Center, University of Colorado
The School for Marine Science and Technology at the University of 
Massachusetts Dartmouth
Sitka Sound Science Center, Alaska
Large Lakes Observatory, University of Minnesota Duluth
Savannah State University
Grice Marine Laboratory, College of Charleston
Belle W. Baruch Institute for Marine and Coastal Sciences, University 
of South Carolina
Patuxent Environmental and Aquatic Research Laboratory, Morgan State 
University
National Ground Water Association
National Estuarine Research Reserve Association
North Carolina A&T State University Division of Research and Economic 
Development
Metropolitan State University of Denver
Earth & Planetary Sciences, The Johns Hopkins University
Romberg Tiburon Center for Environmental Studies, San Francisco State 
University
National Weather Service Employees Organization
Institute for Global Environmental Strategies
School of the Earth, Ocean, and Environment, University of South 
Carolina, Columbia
Bermuda Institute of Ocean Sciences (Bermuda and New York)
The Oceanography Society
Jacksonville University Marine Science Research Institute
The Ocean Foundation
Council on Undergraduate Research
UNAVCO, Inc.
The Coastal and Estuarine Research Federation
Jacques Cousteau National Estuarine Research Reserve
Department of Marine Outreach, Rutgers University
University of Maryland Center for Environmental Science
Skidaway Institute of Oceanography, University of Georgia
School of Freshwater Sciences, University of Wisconsin-Milwaukee
National Association of Geoscience Teachers
American Association of Geographers
Soil Science Society of America
Hatfield Marine Science Center, Newport Oregon
University of California Santa Cruz
College of Fisheries and Ocean Sciences at the University of Alaska 
Fairbanks
North Carolina State University, Center for Marine Sciences & 
Technology
Institute for Water and Environment, Florida International University
Association of Ecosystem Research Centers
Stony Brook University
Desert Research Institute
George Mason University
University of South Florida--College of Marine Science
Utah State University
The Weather Coalition
Boston University
Florida State University
San Francisco State University
The University of North Carolina at Chapel Hill, Institute of Marine 
Sciences
University of Miami
Washington State University
University of Denver
St. Cloud State University
Earth2Ocean, Inc.
Virginia Institute of Marine Science
School of Earth, Energy, and Environmental Sciences at Stanford 
University
Lyndon State College
Department of Atmospheric Sciences, University of Utah
University of Oregon
Oregon Institute of Marine Biology
University of Connecticut
The University of Alaska Fairbanks
University of Maine Darling Marine Center
University of Louisiana at Lafayette and the Louisiana Immersive 
Technologies Enterprise
University of Pittsburgh
FAU Harbor Branch Oceanographic Institute
Bigelow Laboratory for Ocean Sciences
Duke University Marine Laboratory
California State University Council on Ocean Affairs, Science & 
Technology
      
                                 ______
                                 
   Prepared Statement of the University Corporation for Atmospheric 
                                Research
    On behalf of the University Corporation for Atmospheric Research 
(UCAR), I am pleased to submit this testimony to the Senate 
Appropriations Subcommittee on Commerce, Justice, Science and Related 
Agencies and we ask for the subcommittee's continued strong support for 
the Federal investment in the academic atmospheric, Earth, and Related 
Sciences. These agencies support vital atmospheric, Earth, and related 
research in hundreds of universities across the country, benefitting 
from the knowledge, expertise and innovation of our academic 
institutions.
    UCAR is a consortium of over 100 research institutions, including 
77 doctoral degree granting universities, which manages and operates 
the National Center for Atmospheric Research (NCAR) on behalf of the 
National Science Foundation (NSF). UCAR is proud to collaborate with 
and enhance the capabilities of our member universities and Federal 
partners so that they can carry out important research and meet mission 
responsibilities on behalf of the American public. UCAR respectfully 
submits a set of research priorities for the academic atmospheric, 
Earth, and related sciences for this subcommittee and the 115th 
Congress. A focused investment of Federal resources in the atmospheric, 
Earth, and related sciences will make significant contributions towards 
meeting societal concerns including: protection of American lives and 
property; expansion of new economic opportunities; enhancement of 
national security; and strengthening the U.S. leadership in research 
and development. UCAR's subject matter research and education 
priorities are:

  --Weather: Accurate weather forecasts are critical in providing 
        important information for short term and longer term forecasts 
        as well as early warnings of impending severe weather. The goal 
        of weather prediction is to provide timely and accurate 
        information that will serve to reduce weather-related losses, 
        protect life and property, improve public health and safety, 
        support economic prosperity and national security, and improve 
        the quality of life for all citizens.
  --Water: Water challenges are facing communities and regions across 
        the United States and the world, impacting billions of lives 
        and costing billions of dollars in damages. These challenges 
        are particularly problematic in predominantly poor, minority, 
        or rural communities. Weather and climate models are 
        fundamental for understanding the earth's water cycle and 
        issues related to availability, quality, water resource 
        management, energy production, flooding, and drought.
  --Climate: Understanding climate change is critical to the world's 
        welfare. Fundamental use-inspired research, made possible by 
        cutting-edge tools for collecting and analyzing data, can 
        provide the knowledge that governments, businesses, and 
        communities need as they address the climate-related changes 
        that pose growing risks to life, property, natural resources, 
        and the economy. Such research depends on sustained 
        programmatic investments in multidisciplinary observations, 
        process studies, and modeling.
  --Air Quality: Air quality affects broad sectors of society, from 
        human health to crop yields to enjoyment of our national parks. 
        Particulate matter, in addition to ozone, triggers most air 
        quality alerts and health effects. Scientists are improving 
        pollutant tracking and developing detailed air quality 
        predictions. Research is also focused on developing detailed 
        air quality forecasts days in advance. Improved forecasts offer 
        the promise of significant benefits to society.
  --Space Weather: Space weather can disrupt vital technology that 
        forms the backbone of this country's economic vitality and 
        national security, including satellite and airline operations, 
        communications networks, navigation systems, and the electric 
        power grid. Research and observations will help drive advances 
        in modeling capability and improve the quality of space-weather 
        products and services. Transition of the latest scientific and 
        technological advances into space weather operations centers 
        will enable an improved rate of forecast improvement.
  --Education: The success of the research challenges above is 
        dependent on a science, technology, engineering and mathematics 
        (STEM) education system that produces a diverse and well-
        prepared workforce of scientists, technicians, engineers, 
        mathematicians and educators and a well-informed citizenry that 
        have access to the ideas and tools of science and engineering.

    The recommendations are consistent with the recently enacted 
legislation including the American Innovation and Competitiveness Act, 
the Weather Research and Forecasting Innovation Act of 2017, and the 
pending Space Weather Research and Forecasting Act.
               the importance of our research investments
    UCAR has worked to elevate the understanding of, and support for, 
the atmospheric, Earth, and related sciences nationwide. The 
atmospheric science departments at our member institutions are drivers 
of innovation and the fundamental scientific research that has pushed 
our understanding of weather, water, climate, air quality, space 
weather, and education and training atmosphere into exciting and 
groundbreaking new areas. These advances have improved our ability to 
predict and understand some of the most dangerous phenomena that occur 
on our planet every day. Protection of life and property are the 
central drivers of this scientific innovation and discovery. However, 
more broadly, these innovations play a significant role in protecting 
our national security, our homeland, our businesses, our infrastructure 
and most importantly, our families and communities. As demand for 
information, prediction, and mitigation increase nationally and across 
the globe, it is the collaborative and exhaustive research being 
conducted in our universities and research laboratories that will 
answer this call and make our families, communities, businesses, and 
infrastructure better equipped and prepared to meet the challenges and 
dangers of living inside Earth's dynamic atmosphere.
    The return on investments in the atmospheric sciences exemplifies 
how Federal R&D drives economic growth. The commercial weather industry 
leverages U.S. investments in weather observation, atmospheric 
research, and computer modeling to produce tailored products for a wide 
variety of clients, including the general public. There are now more 
than 350 commercial weather companies in the U.S., generating nearly $3 
billion in annual revenues. The growth rate of this industry is 
estimated to be about 10 percent per year. The vast majority of these 
innovations and technological advances are products of our academic 
institutions. Researchers, graduate students, and investigators at our 
universities are an astounding and innovative resource that, in light 
of the linkage between innovation and our economy, should be seen for 
what they are--our most valuable national asset. Across the country 
there is groundbreaking atmospheric science being done that will power 
our economy, save lives, protect our citizens, and impact every single 
American in a profound way.
                  key programs at nsf, noaa, and nasa
    UCAR calls out the importance of these agencies supporting 
extramural research, particularly with respect NOAA and NASA. Both 
agencies place a high value on the partnerships that develop via 
collaborative extramural research. This includes such activities as 
NOAA's Cooperative Institutes and NASA's research opportunities in 
space and earth sciences. Maintaining the extramural portion of these 
programs while fostering new extramural efforts in emerging areas will 
help these agencies meet their stewardship responsibilities as they 
relate to their particular missions. UCAR supports the April 2013 NOAA 
Science Advisory Board's report from its Research and Development 
Portfolio Review Task Force (PRTF), which said:

          NOAA's success in fulfilling its mandate and mission to the 
        Nation depends upon a well-configured and appropriately 
        balanced and funded portfolio of research, both intramural and 
        extramural. The balance is dynamic and will change over time. 
        The internal investment is required to fulfill the agency's 
        mandates and to ensure long-term stable funding of key research 
        and observational programs. The extramural investment allows 
        greater flexibility and agility in the selection of problems 
        and problem-solvers and takes on added importance during 
        periods of severe budgetary constraints. Both the intramural 
        and extramural components require stability and predictability 
        in funding levels . . . The PRTF recommends that NOAA 
        capitalize on the support and skills of the extramural research 
        community by developing carefully targeted initiatives that 
        meet the needs of the Next Generation Strategic plan, that are 
        stable and consistent over time to enable year to year 
        planning, and that ensure the results are integrated into 
        NOAA's R&D operations . . .''

    Within NSF, NOAA, and NASA, there are a number of specific 
initiatives we call to the subcommittee's attention and ask for your 
strong support for these initiatives:

  --NSF's geoscience directorate, its division of atmospheric and 
        geospace sciences; and the National Center for Atmospheric 
        Research (NCAR);
  --Key NOAA programs including the Cooperative Institutes, the 
        Airborne Phased Array Radar program (APAR), and the 
        Constellation Observing System for Meteorology, Ionosphere, and 
        Climate--2 (COSMIC) and its ground station; and
  --NASA earth sciences and heliophysics research programs.

    National Center for Atmospheric Research (NCAR).--NCAR, NSF's only 
federally Funded Research and Development Center in the geosciences, 
has an exceptional record of leadership, scientific achievement and 
effective translation of scientific advances into useful knowledge for 
a nation that is highly impacted by atmospheric events that are 
sometimes catastrophic. The current Administration has proposed a $350 
million reduction in fiscal year 2017 for NSF research activities. Even 
greater reductions are expected to be proposed for fiscal year 2018. 
There is real and growing concern by the UCAR Board of Trustees that 
with these proposed reductions, NCAR will be unable to sufficiently 
support its user community by maintaining existing national scientific 
capabilities; such as the expanded computing facility operating in 
Wyoming or the High-performance Instrumented Airborne Platform for 
Environmental Research (HIAPER). These are examples of newly 
established capabilities resulting from prior appropriations provided 
by this subcommittee now under stress. NCAR is an essential part of the 
research capabilities needed by the atmospheric, Earth, and related 
sciences community.
    NOAA Cooperative Institutes (CI).--The National Oceanic and 
Atmospheric Administration's CI program helps to provide the research 
and development necessary to improve the agency's weather, ocean, and 
climate services, living marine resource management and stewardship, 
and many more mission responsibilities. These activities provide the 
scientific basis for national policy decisions in key environmental 
disciplines, such as climate and weather, disaster risk reduction, and 
air quality management. CIs provide NOAA with access to a wide 
diversity of programs, disciplines, and expertise. Within the last 15 
years alone, CIs have enabled NOAA scientists to collaborate with 
dozens of universities and thousands of academic scientists, including 
multiple Nobel laureates. Additionally, a large number of students and 
early-career researchers have gained exposure to NOAA laboratories and 
programs through CIs, and some formed long-lasting collaborations with 
NOAA or even became NOAA employees. The diversity of the CI program 
also extends to the management structure, communications capacity, and 
the types of products delivered, reflecting and respecting the cultures 
and styles of particular institutions and programs, and the communities 
in which they are situated.
    Airborne Phased Array Radar (APAR).--Continued support for NOAA's 
investment of in the APAR program will enable research and development 
of advanced methods of aircraft-based hazardous weather observation, 
which provide critical information about severe, tropical and heavy 
precipitation storms, for more accurate public warnings and forecasts. 
Airborne Doppler radar measurements provide critical location and 
intensity information about these storms, especially over open ocean or 
rugged terrain, where other radar information does not exist. 
Forecasters around the world utilize these radar observations, combined 
with satellite data and other environmental observations, to study 
storms and generate predictions of storm intensity and direction. The 
investment will focus on the research and development of an airborne 
radar system which can be utilized on a NOAA aircraft, and will provide 
more data, more accurately. Funding will be used to examine the 
potential benefits of APAR for providing the real-time data needed for 
National Weather Service (NWS) forecasts and warnings and to determine 
how APAR's additional, advanced capabilities can improve forecasts in 
the future. NOAA Research will work with the research community to 
initially develop and demonstrate APAR's feasibility for collecting 
airborne radar measurements in hazardous weather environments, 
including hurricanes and severe local storms. Additionally, NOAA and 
its partners will use these measurements to conduct research to 
understand severe storms and improve NOAA's predictions and warnings 
for the public. Through this effort, future opportunities to develop 
and test other airborne observing systems, besides radar, will emerge 
and ensure that NOAA has the best airborne observing platform for 
hazardous weather events.
    Constellation Observing System for Meteorology, Ionosphere, and 
Climate (COSMIC).--COSMIC is a six-satellite constellation that was 
launched to the polar orbit in 2006 in a joint collaboration between 
Taiwan, National Science Foundation, NASA, United States Air Force 
(USAF), and University Corporation for Atmospheric Research (UCAR). 
COSMIC-2 is a continuation of the partnership between the United States 
(NOAA and USAF) and Taiwan to produce an operational constellation of 
GNSS RO satellites. The USAF is providing six RO sensors to be launched 
in low-inclination (equatorial) orbit, known as COSMIC- 2A. Taiwan will 
procure and operate the spacecraft for the GNSS RO satellites. NOAA 
will provide the ground reception system for processing data from the 
GNSS RO satellites. NOAA intends to leverage this ground system to 
acquire other RO data where possible whether from other governmental 
organizations or commercial operators. UCAR strongly supports the 
COSMIC-2 program. With sufficient funding NOAA intends to complete all 
information technology security testing and verification in preparation 
for COSMIC-2 launches. UCAR processing functions will be tested and 
certified by the National Centers for Environmental Prediction. Funding 
will support the operational testing and validation of the Numerical 
Weather Prediction models for COSMIC-2.
    NASA Earth Science.--UCAR requests full funding of the Earth 
Science Division and opposes the Administration's proposals to reduce 
Earth Science research in fiscal year 2017 and fiscal year 2018. 
Adequate funding ensures exciting projects such as the Surface Water 
and Ocean Topography (SWOT) mission, which will conduct the first-ever 
global survey of Earth's surface water. Data from the satellite has 
promising uses for flood and drought management at local, regional, and 
national levels; improved risk assessments by the insurance industry; 
harnessing ocean energy opportunities; and optimizing the efficiency 
and effectiveness of both military and commercial marine operations. 
Strong funding for NASA Earth Sciences will also support the launch of 
Landsat 9 and 10 in a timely manner, which will provide manifest 
benefits to municipalities, corporations, and the general public in 
land-use planning.
    NASA Heliophysics.--UCAR strongly supports NASA's Heliophysics 
Science Division which supports research in the study of the sun and 
its impact on the Earth. In 1859, a large Coronal Mass Ejection (CME)--
known as the Carrington Event--sent charged plasma to the Earth from 
the sun, causing widespread failure of the telegraph system. Recently 
smaller events caused localized disruptions in telecommunications and 
electricity grid systems, which negatively impacted industry and 
military activities, as well as the daily lives of American citizens. 
Because of societal reliance on space-based assets, as well as the 
electricity grid, and a number of other systems vulnerable to extreme 
space weather, the economic impact of another Carrington Event to the 
United States alone is $2.6 trillion. As such, we must improve our 
ability to understand and predict space weather to mitigate the risks 
and costs associated with future threats. Strong funding for the 
Heliophysics Division would enable NASA to fully participate in the 
cross-agency Space Weather Action Plan that will enable the United 
States to better understand, prepare for, and respond to space weather.
                          concluding thoughts
    We recognize the constraints the subcommittee must confront in 
developing its fiscal year 2018 appropriations bill. We hope you will 
see the investment in the research programs of NSF, NOAA, and NASA as 
essential priority investments that will contribute to the Nation's 
economic and national security as well as public safety. Thank you for 
the opportunity to submit these views.

    [This statement was submitted by Dr. Antonio Busalacchi, 
President.]
</pre></body></html>
